Office of Material Loss Reviews
Report No. MLR-10-019


Material Loss Review of Founders Bank,
Worth, Illinois and Rock River Bank,
Oregon, Illinois




                                  February 2010
                                     Executive Summary

                                     Material Loss Review of Founders Bank, Worth,
                                     Illinois and Rock River Bank, Oregon, Illinois
                                                                                     Report No. MLR-10-019
                                                                                             February 2010

Why We Did The Audit
On July 2, 2009, the Illinois Department of Financial and Professional Regulation (IDFPR) closed
Founders Bank (Founders), Worth, Illinois and Rock River Bank (Rock River), Oregon, Illinois and
named the FDIC as receiver. On August 12, 2009, the FDIC notified the Office of Inspector General
(OIG) that Founders’ total assets at closing were $911 million and the estimated loss to the Deposit
Insurance Fund (DIF) was $173 million and Rock River’s total assets at closing were $73 million and the
estimated loss to the DIF was $27 million. As required by section 38(k) of the Federal Deposit Insurance
(FDI) Act, the OIG conducted a material loss review of the failures. Because both institutions were under
common ownership and followed a similar business model, we addressed both failures in one report.

The objectives were to (1) determine the causes of failure for Founders and Rock River and the resulting
material losses to the DIF and (2) evaluate the FDIC’s supervision of the institutions, including the
FDIC’s implementation of the Prompt Corrective Action (PCA) provisions of section 38 of the FDI Act.


Background
Founders and Rock River were part of a complex chain banking organization consisting of nine FDIC-
insured institutions under the collective control of the Lyle Campbell family and their related interests
(referred to as the Campbell Group). All of the institutions within the Campbell Group were considered
affiliates based on section 23A of the Federal Reserve Act made applicable to insured nonmember banks
by section 18(j) of the FDI Act, which establishes certain requirements, restrictions, and prohibitions with
regard to transactions among the banks.

Founders was established in 1961 as a state-chartered nonmember institution. The institution operated 12
branches in the suburban areas of Chicago, Illinois and was wholly-owned by the Founders Group, Inc., a
two-bank holding company that provided managerial and operational services to other institutions in the
Campbell Group. Prior to 2005, Founders’ assets consisted primarily of commercial real estate (CRE)
loans and government securities. Founders began purchasing complex structured credit products known
as collateralized debt obligations (CDO) in late 2005. Founders also began purchasing out-of-area
acquisition, development, and construction (ADC) loan participations from an affiliate in 2006.

Rock River was established in 1935 as a state-chartered nonmember institution. The institution operated
four branches in northern Illinois and was wholly-owned by Rock River Bancorp, Inc., a one-bank
holding company located in Oregon, Illinois. Rock River’s assets traditionally consisted of CRE loans
and government securities. Similar to Founders, Rock River began purchasing CDOs and ADC loan
participations in 2005.


Audit Results
Causes of Failures and Material Losses

Founders and Rock River failed primarily because their Boards and management did not effectively
manage the risk associated with significant investments in risky CDOs. Between the fourth quarter of
2005 and July 2007, Founders and Rock River purchased approximately $41 million and $7.7 million,
respectively, in CDOs without establishing and implementing appropriate risk management controls. Of


                                To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Founders Bank, Worth,
                                      Illinois and Rock River Bank, Oregon, Illinois
                                                                                      Report No. MLR-10-019
                                                                                              February 2010

note, neither institution performed appropriate pre-purchase analysis or established formal investment
policies that addressed CDOs before investing in these securities. In addition, the institutions did not
establish prudent limits on their CDO investments, nor did they effectively monitor or manage the
securities after purchase. When the downturn in the banking industry occurred in 2008, the CDOs
quickly lost value and became illiquid, threatening the viability of both institutions.

Also contributing to the failures of Founders and Rock River was a deterioration in the institutions’ CRE
and ADC loan portfolios. Both institutions had CRE concentrations that included out-of-area ADC loan
participations for which the institutions had not performed proper due diligence. Weaknesses in the ADC
loan participations, together with a concentration in CRE loans, made both institutions vulnerable to a
sustained downturn in the real estate market. Although not a primary cause of failure, Founders and Rock
River also funded poorly underwritten loans to insiders of the Campbell Group and to outside officers of
the failed Strategic Capital Bank that added to the institutions’ losses. IDFPR closed Founders and Rock
River because the institutions were operated in an unsafe and unsound manner and were unable to raise
sufficient capital to provide adequate protection for their depositors.

The FDIC’s Supervision of Founders and Rock River

The FDIC, in coordination with IDFPR, provided ongoing supervisory oversight of Founders and Rock
River through regular on-site risk management examinations, targeted reviews, and offsite monitoring
activities. Although not required, the FDIC also performed an on-site central review in August 2008 of
the managerial and operational services provided by the Founders Group, Inc. to other institutions in the
Campbell Group. Through its supervisory efforts, the FDIC identified risks at Founders and Rock River
and brought these risks to the attention of the institutions’ Boards and management.

A key lesson learned with respect to the failures of Founders and Rock River is that when institutions
make significant investments in complex structured credit products without appropriate risk management
controls, such practices become unsafe and unsound and require a strong supervisory response. In the
cases of Founders and Rock River, both institutions had significant concentrations in CDOs with credit
risk ratings equal to, or slightly above, the lowest investment grade that is generally permissible for
insured institutions. Although examiners recommended in 2005 and 2006 that Founders and Rock River
establish investment policies to address their CDO investments, the actions taken by the institutions to
address those recommendations were not timely or adequate. A stronger supervisory response could have
included conducting visitations, targeted reviews, or follow-up between regular examinations to assess the
progress of recommended corrective actions; requiring the institutions to increase their capital holdings;
and/or downgrading the institutions’ supervisory ratings and pursuing enforcement actions, if appropriate.

The FDIC’s central review of the Campbell Group represented a proactive supervisory strategy for
identifying key risks in the Campbell Group that might not have otherwise been identified through
individual examinations or other offsite monitoring activities. Given the effectiveness of the strategy in
this case, the FDIC may find it beneficial to clarify its procedures for conducting chain bank reviews to
describe more clearly this type of on-site central review and under what circumstances the review should
be performed. In addition, with respect to the heavy volume of out-of-area loan participations purchased
in 2006 and continuing through April 2008, examiners could have expressed concern regarding the lack
of due diligence by Founders and Rock River and recommended that the institutions implement stronger
risk management controls in this area at examinations conducted in 2006 and 2007.




                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                     Material Loss Review of Founders Bank, Worth,
                                     Illinois and Rock River Bank, Oregon, Illinois
                                                                                    Report No. MLR-10-019
                                                                                            February 2010

Part 325, Capital Maintenance, of the FDIC Rules and Regulations implements the requirements of PCA
by establishing a framework of restrictions and mandatory supervisory actions that are triggered based on
an institution’s capital levels. Based on the supervisory actions taken with respect to Founders and Rock
River, the FDIC properly implemented applicable PCA provisions of section 38 of the FDI Act.


Management Response
The Director, Division of Supervision and Consumer Protection (DSC), provided a written response to a
draft of this report on February 12, 2010. In the response, DSC concurred with our conclusions regarding
the causes of failures. With regard to our assessment of the FDIC’s supervision of Founders and Rock
River, DSC summarized several supervisory actions taken in relation to the institution’s activities. DSC
also noted that stronger supervisory follow-up to assess the progress of recommended corrective actions
would have been prudent for both institutions, particularly with respect to managing the risks inherent in
the CDO portfolios. In that regard, DSC stated that it has issued updated guidance addressing risk
management of investments in structured credit products that provides clarification to existing guidance
and strongly urges insured institutions to revisit this existing guidance.




                                To view the full report, go to www.fdicig.gov
                                  Contents
                                                                           Page
Background                                                                   2

Causes of Failures and Material Losses                                       4
  Investments in CDOs                                                        5
  CRE Concentrations and ADC Loan Participations                             8
  Loans to Insiders and Outside Officers of Strategic                        9

The FDIC’s Supervision of Founders and Rock River                           10
   Supervisory History                                                      11
   Supervisory Oversight of CDOs                                            13
   Central Review                                                           16
   Supervisory Oversight of CRE Concentrations and ADC Loan                 17
    Participations
   Implementation of PCA                                                    17

Corporation Comments                                                        19

Appendices 
  1. Objectives, Scope, and Methodology                                     20
  2. Glossary of Terms                                                      22
  3. Acronyms                                                               25
  4. Campbell Group Organization                                            26
  5. Corporation Comments                                                   27

Tables
   1. Selected Information for Failed Institutions in the Campbell Group     2
   2. Selected Financial Information for Founders                            3
   3. Selected Financial Information for Rock River                          4
   4. Value of CDOs Held by Failed Institutions in the Campbell Group        5
      as of March 31, 2007
   5. Founders’ and Rock River’s CRE Concentrations Compared to              8
      Peer Groups
   6. On-site Examinations of Founders                                      11
   7. On-site Examinations of Rock River                                    12
   8. Trends in Tier 1 Leverage Capital Ratios for Founders and Rock        15
      River
   9. Founders’ Capital Levels                                              18
  10. Rock River’s Capital Levels                                           18

Figure
    Example of a Typical CDO Tranche Structure and Associated Risks          6
Federal Deposit Insurance Corporation                                               Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General


DATE:                                     February 12, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Founders Bank, Worth, Illinois
                                          and Rock River Bank, Oregon, Illinois
                                          (Report No. MLR-10-019)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failures of Founders
Bank (Founders), Worth, Illinois and Rock River Bank (Rock River), Oregon, Illinois.
Both institutions were closed on July 2, 2009 by the Illinois Department of Financial and
Professional Regulation (IDFPR), which appointed the FDIC as receiver. On August 12,
2009, the FDIC notified the OIG that Founders’ total assets at closing were $911 million
and the estimated loss to the Deposit Insurance Fund (DIF) was $173 million and Rock
River’s total assets at closing were $73 million and the estimated loss to the DIF was
$27 million. Because both institutions were under common ownership and followed a
similar business model, we have addressed both failures in this report.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency. The report
is to consist of a review of the agency’s supervision of the institution, including the
agency’s implementation of FDI Act section 38, Prompt Corrective Action (PCA); a
determination as to why the institution’s problems resulted in a material loss to the DIF;
and recommendations to prevent future losses.

The objectives of our review were to (1) determine the causes of failure for Founders and
Rock River and the resulting material losses to the DIF and (2) evaluate the FDIC’s
supervision2 of the institutions, including the FDIC’s implementation of the PCA


1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
provisions of section 38 of the FDI Act. This report presents the FDIC OIG’s analysis of
the failure of Founders and Rock River and the FDIC’s efforts to ensure that the Boards
of Directors (Boards) and management operated each institution in a safe and sound
manner. The report does not contain formal recommendations. Instead, as major causes,
trends, and common characteristics of financial institution failures are identified in our
material loss reviews, we will communicate those to management for its consideration.
As resources allow, we may also conduct more in-depth reviews of specific aspects of
DSC’s supervision program and make recommendations as warranted. Appendix 1
contains details on our objectives, scope, and methodology; Appendix 2 contains a
glossary of terms; Appendix 3 contains a list of acronyms; and Appendix 4 contains
information pertaining to the ownership of Founders and Rock River. Appendix 5
contains the Corporation’s comments on this report.


Background
Founders and Rock River were part of a complex chain banking organization consisting
of nine FDIC-insured institutions under the collective control of the Lyle Campbell
family and their related interests (referred to herein as the Campbell Group). The FDIC
and the Board of Governors of the Federal Reserve System determined that the Campbell
Group was under the presumptive control of the Campbell family because various
members of the family served on the Boards, held various management positions, and/or
had a direct or indirect ownership interest in each institution or its holding company. All
of the institutions within the Campbell Group were considered affiliates based on
Section 23A of the Federal Reserve Act made applicable to insured nonmember banks by
Section 18(j) of the FDI Act.3 Six of the nine institutions in the Campbell Group were
closed on July 2, 2009. Table 1 provides selected financial and regulatory information
pertaining to these six institutions.

Table 1: Selected Information for Failed Institutions in the Campbell Group
                                                                           Loss
                                               Estimated Loss           Percentage              Primary
                            Total Assets         to the DIF          (related to Total          Federal
     Institution Name        (millions)           (millions)              Assets)              Regulator
    Founders                   $911.1               $173.0                 19.0%                 FDIC
    Rock River                  $73.4               $27.2                  37.1%                 FDIC
    John Warner Bank            $66.9                $9.9                  14.8%                 FDIC
    Elizabeth State             $56.7               $11.1                  19.6%                 FDIC
    Bank
    The First State Bank         $31.0                $5.5                 17.7%                  FDIC
    of Winchester
    First National Bank         $153.9               $20.1                 13.1%               Office of the
    of Danville                                                                               Comptroller of
                                                                                               the Currency
                                                                                                  (OCC)
    Total                      $1,293.0              $246.8          19.1% (average)
Source: Financial reports prepared by the FDIC’s Division of Finance as of August 12, 2009.



3
    See the glossary for more information regarding Section 23A’s definition of affiliates.

                                                        2
Founders

Established in 1961 as a state-chartered nonmember institution, Founders was the largest
of the nine institutions in the Campbell Group. Founders operated a total of 12 branch
offices in the southern suburban areas of Chicago, Illinois, and was wholly-owned by the
Founders Group, Inc., a two-bank holding company which also owned the First National
Bank of Danville. The Founders Group, Inc. provided key managerial and operational
services to other institutions in the Campbell Group on a consolidated basis. Such
services included accounting, capital management, information technology, internal
audit, and investment management. Prior to 2005, Founders’ assets consisted primarily
of commercial real estate (CRE) loans and U.S. Treasury, agency,4 and municipal
securities. As discussed more fully in this report, Founders began investing in complex
structured credit products known as collateralized debt obligations (CDO) in late 2005.
Founders also began purchasing out-of-area acquisition, development, and construction
(ADC) loan participations from an affiliate institution in the Campbell Group in 2006.

The FDIC and IDFPR considered the management team at Founders to be experienced
and capable, as reflected in the supervisory component ratings5 of “1” assigned for
management at every examination between 1998 and 2007. Table 2 summarizes selected
financial information pertaining to Founders as of June 30, 2009 and for the 4 preceding
calendar years.

Table 2: Selected Financial Information for Founders
        Financial Measure                 Jun-09         Dec-08        Dec-07        Dec-06         Dec-05
Total Assets ($000s)                     889,172         930,707      972,975        954,508       895,579
Total Loans ($000s)                      585,259         614,883      641,154        617,274       577,539
Total Deposits ($000s)                   832,160         791,550      798,348        773,081       728,912
Return on Assets (%)                      (7.73)          (.61)         .53            .95          1.11
Tier 1 Leverage Capital Ratio (%)          2.12            5.92         6.58           6.70          7.07
Source: Uniform Bank Performance Reports (UBPR) for Founders.

Rock River

Established in 1935 as a state-chartered nonmember institution, Rock River operated four
branches in northern Illinois. The institution was wholly-owned by the Rock River
Bancorp, Inc., a one-bank holding company located in Oregon, Illinois. Rock River’s
assets traditionally consisted of CRE loans and U.S. Treasury, agency, and municipal
securities. Similar to Founders, Rock River began investing in CDOs and purchasing

4
  Agency securities are issued by U.S. government-sponsored agencies, such as the Government National
Mortgage Association, Federal National Mortgage Association, and Federal Home Loan Mortgage
Corporation. Such securities may be explicitly or implicitly backed by the U.S. Government.
5
  Pursuant to the Uniform Financial Institutions Rating System (UFIRS), federal and state regulators assign
supervisory ratings to financial institutions based on the results of safety and soundness examinations and
other supervisory activities. Ratings consist of a “composite” rating reflecting the institution’s overall
financial condition and operations and six “component” ratings represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Ratings are assigned on a scale of 1 to 5, with 1 representing the least
supervisory concern and 5 representing the greatest supervisory concern.

                                                     3
ADC loan participations from an affiliate in the Campbell Group in 2005. The FDIC and
IDFPR considered Rock River’s management to be experienced and capable, as reflected
in the management component ratings of “1” or “2” assigned by examiners from the late-
1980s through 2007. Table 2 summarizes selected financial information pertaining to
Rock River as of June 30, 2009 and for the 4 preceding calendar years.

Table 3: Selected Financial Information for Rock River
    Financial Measure                    Jun-09        Dec-08        Dec-07        Dec-06        Dec-05
Total Assets ($000s)                     74,808        77,332        87,303        74,098        69,647
Total Loans ($000s)                      49,598        54,038        53,176        39,880        37,294
Total Deposits ($000s)                   74,896        66,364        60,216        54,834        53,240
Return on Assets (%)                     (13.75)        (.64)          .75           .25           .70
Tier 1 Leverage Capital Ratio (%)           0           6.01          7.17          6.85          8.86
Source: UBPRs for Rock River.



Causes of Failures and Material Losses
Founders and Rock River failed primarily because their Boards and management did not
effectively manage the risk associated with significant investments in risky CDOs.
Between the fourth quarter of 2005 and July 2007, Founders and Rock River purchased
approximately $41 million and $7.7 million, respectively, in CDOs without establishing
and implementing appropriate risk management controls. Of note, neither institution
performed appropriate pre-purchase analysis or established formal investment policies
that addressed CDOs before investing in these securities. In addition, the institutions did
not establish prudent limits on their CDO investments, nor did they effectively monitor or
manage the securities after purchase. When the downturn in the banking industry
occurred in 2008, the CDOs quickly lost value and became illiquid, threatening the
viability of both institutions.

Also contributing to the failures of Founders and Rock River was a deterioration in the
institutions’ CRE and ADC loan portfolios. Both institutions had CRE concentrations
that included out-of-area ADC loan participations for which the institutions had not
performed proper due diligence. Weaknesses in the ADC loan participations, together
with a concentration in CRE loans, made both institutions vulnerable to a sustained
downturn in the real estate market. Although not a primary cause of failure, Founders
and Rock River also funded poorly underwritten loans to insiders of the Campbell Group
and to outside officers of the failed Strategic Capital Bank (Strategic)6 that added to the
institutions’ losses.

By March 2009, the losses and provisions associated with Founders’ and Rock River’s
CDO investments and CRE loans had eliminated the institutions’ earnings and depleted
their capital. IDFPR closed Founders and Rock River on July 2, 2009 because the

6
 Our report entitled, Material Loss Review of Strategic Capital Bank, Champaign, Illinois (Report No.
MLR-10-007) provides information regarding the causes of Strategic’s failure and the FDIC’s supervision
of the institution.

                                                   4
institutions were operated in an unsafe and unsound manner and were unable to raise
sufficient capital to provide adequate protection for their depositors.

Investments in CDOs

Overall investment policy and related decision-making for institutions within the
Campbell Group was centrally managed by a single Investment Officer working in the
Founders Group, Inc. In addition to serving as the Campbell Group’s Investment Officer,
this individual also held Board positions at other institutions within the chain, including
Founders and Rock River. In an effort to improve asset yields within the Campbell
Group, the Investment Officer began purchasing CDOs in the fourth quarter of 2005 and
allocating these securities to institutions throughout the chain. By March 31, 2007, a
total of 18 CDOs with a value of over $89 million had been purchased. Table 4
summarizes the value of CDOs held by the six institutions7 in the Campbell Group that
have failed, as well as the percentage of Tier 1 Capital that these securities represented at
each institution.

Table 4: Value of CDOs Held by Failed Institutions in the Campbell Group
         as of March 31, 2007
                                           Book Value of CDOs           CDO Holdings as a Percentage
            Institution Name                  (in millions)                   of Tier 1 Capital
    Founders                                        $41.3                               62%
    Rock River                                       $7.7                              144%
    Elizabeth State Bank                             $8.1                              165%
    The First State Bank of                         $3.0                               126%
    Winchester
    John Warner Bank                                $11.1                              173%
    First National Bank of Danville                 $18.1                              123%
    Total                                           $89.3
Source: Analysis of CDO holdings prepared by the Division of Resolutions and Receiverships (DRR).

The majority of CDOs purchased by Founders and Rock River were collateralized by
Trust Preferred Securities (TruPs), instruments often issued by financial institutions, their
holding companies, and insurance companies for the purpose of raising capital. The
remaining CDOs were collateralized by real estate investment trusts (REIT) which held
CRE properties and ADC investments. Importantly, over 80 percent of the CDOs
purchased by the Campbell Group had a credit risk rating that was equal to, or slightly
above, the lowest investment grade that is generally permissible for insured institutions.
Legal requirements generally provide that when institutions acquire investment securities,
the securities must carry an investment grade rating, or if not rated, the securities must
have the credit equivalent of investment grade.8


7
  Two of the three open institutions in the Campbell Group also hold CDOs. However, the CDO holdings
at these institutions represent a lower percentage of Tier 1 Capital than the institutions listed in Table 4.
8
  Part 362, Activities and Investments of Insured State Banks, of the FDIC Rules and Regulations generally
prohibits investment activities that are not permissible for national banks, with certain exceptions. See the
OCC’s Activities Permissible for a National Bank, Cumulative, dated April 2009, for more information.

                                                      5
The low credit rating assigned to the CDOs reflected the relatively low priority for
payment and collateral (often referred to as a “tranche”) that the holders of the securities
had in the event that the underlying obligators defaulted on their payments. The figure
below illustrates the three basic tranches associated with a CDO as well as the credit
ratings that are often assigned by major credit rating agencies to each tranche. The figure
also depicts the relative priority in the event of default, credit risk, and expected yields
associated with each tranche. A key point is that the lower the CDO tranche, the riskier
the investment.

Figure: Example of a Typical CDO Tranche Structure and Associated Risks
                                      Priority in the
  Tranche        Credit Rating       Event of Default         Credit Risk             Expected Yield

   Senior            AAA                 Highest                Lowest                    Lower

 Mezzanine       AA, A, BBB

   Equity        BB, B, CCC               Lowest                Highest                  Higher
Source: OIG analysis of publicly available information from credit rating agencies.

The Investment Officer determined that the CDOs purchased and allocated to the
institutions in the Campbell Group represented an acceptable risk because the underlying
TruPs were diversified among hundreds of regulated institutions and the securities carried
an investment grade. During 2006, when the majority of the CDOs were purchased,
insured institutions were experiencing record profits, and failures within the banking
industry were at an historic low. However, the decision to purchase the CDOs
represented a departure from the conservative investment approach at Founders and Rock
River of purchasing low-risk government and agency securities. Notably, the risks,
terms, ratings, yields, liquidity, and underlying assets of the CDOs were significantly
different from the majority of the institutions’ prior investments. However, neither
institution adequately strengthened its investment management controls to address the
increased risk associated with the CDOs. Among other things, the Boards and
management of Founders and Rock River did not:

     •   Perform appropriate pre-purchase risk
                                                              When institutions change their investing
         analysis before acquiring the CDOs.                  practices to take on more credit risk without
         Such an analysis would have included                 appropriate credit due diligence, limits, and
         assessing the performance of the                     guidelines (including higher capital when
         CDOs under a variety of possible                     needed), such practices become unsafe and
                                                              unsound. The further down the credit quality
         scenarios (e.g., changes in underlying
                                                              spectrum an institution invests, the more
         payment deferrals and defaults) using                critical it becomes to supplement ratings from
         a methodology consistent with the                    credit rating agencies with internal credit
         complexity of the securities.                        analysis. External credit ratings are often
                                                              lagging indicators of credit quality.
     •   Establish formal investment policies                 OCC Bulletin, entitled Unsafe and Unsound
         that addressed CDOs before                           Investment Portfolio Practices, dated May 22,
         purchasing the securities.                           2002.




                                                      6
    •   Establish an investment committee to assess and manage the risk associated with
        the CDOs until February 2009. Prior to that time, CDO investment decisions for
        institutions in the Campbell Group (including Founders and Rock River) were
        made by the Investment Officer.

    •   Establish appropriate limits (e.g., a percentage of each institutions’ Tier 1
        Capital) on the amount of CDOs that could be purchased.

    •   Develop a viable “exit strategy” in the event that CDO market conditions became
        adverse.

    •   Implement adequate methodologies to value the CDOs.

The Federal Financial Institutions Examination Council’s publication, entitled
Supervisory Policy Statement on Investment Securities and End-User Derivatives
Activities, effective May 26, 1998, states that the institution’s Board is responsible for
approving major policies for conducting investment activities and establishing associated
risk limits. To properly discharge its oversight responsibilities, the Board should review
portfolio activity and risk levels, and require management to demonstrate compliance
with approved risk limits. The Board should also have an adequate understanding of
investment activities. This is particularly important for products that have unusual,
leveraged, or highly variable cash flows. Institutions should ensure that they identify and
measure the risks associated with individual transactions prior to acquisition and
periodically after purchase. The Board minutes for Founders and Rock River contained
limited information pertaining to the CDOs prior to 2008.

Based on recommendations contained in the October 2006 examination report for
Founders, the Investment Officer for the Campbell Group revised the organization’s
investment policy to incorporate CDO investment guidelines and practices. However, the
revision to allow CDO investments occurred in August 2007, after all 18 CDOs had been
purchased. Further, the investment policy, as amended, allowed each institution in the
Campbell Group to purchase CDOs in an amount of up to 175 percent of Tier 1 Capital.
This high limit presented an elevated risk and was set at this level to ensure that all
institutions in the Campbell Group would be in compliance with the investment policy.
Further, the revision did not fully address CDO due diligence and monitoring, including
documentation requirements. In addition, although information regarding investment
activities continued to be provided to the Boards of Founders and Rock River, the
directors did not perform an investment portfolio risk assessment or a comprehensive
portfolio review that an investment committee would typically perform.

During the fall of 2007, some of the CDOs purchased by the Campbell Group,
particularly those collateralized by REITs, began to lose value due to defaults by the
underlying obligors. Based on the decline in the CDO markets, the Campbell Group
revised its investment policy in April 2008 to prohibit any further investments in CDOs.
By July 2008, the majority of the CDOs collateralized by REITs had fallen below
investment grade and lost a significant portion of their value. In addition, the CDOs
collateralized by TruPs were declining in value because the underlying issuers were

                                              7
either deferring or defaulting on their payments. At that time, the Investment Officer
decided that the institutions in the Campbell Group (including Founders and Rock River)
would hold the CDOs with the cautious expectation that the CDO market would
eventually improve and become liquid.

By the close of 2008, the decline in the CDO market and the illiquidity of the securities
made it difficult to determine their value. For calendar year 2008, Founders and Rock
River recognized losses of $2.1 million and $0.6 million, respectively, pertaining to their
CDO investments. Founders and Rock River recognized additional losses of $28 million
and $4.3 million, respectively, for their CDO investments as of March 31, 2009. These
losses resulted in Founders falling from a Well Capitalized to a Significantly
Undercapitalized position for purposes of PCA. However, because Rock River’s CDOs
represented a much larger percentage of its Tier 1 Capital than Founders, Rock River fell
from a Well Capitalized to a Critically Undercapitalized position.

CRE Concentrations and ADC Loan Participations

Much of Founders’ and Rock River’s lending pertained to real estate, particularly CRE.
As of December 31, 2007, approximately 68 percent of Founders’ $644.1 million loan
portfolio and 57 percent of Rock River’s $53.2 million loan portfolio consisted of CRE
loans. As reflected in Table 5, Founders and Rock River had high concentrations in CRE
loans relative to total capital as compared to their peer groups.9 These concentrations
made the institutions vulnerable to a sustained downturn in the real estate market.

Table 5: Founders’ and Rock River’s CRE Concentrations Compared to Peer
         Groups
                Founders CRE           Peer Group Average          Rock River CRE         Peer Group Average
     Year
               Relative to Total         and Percentile            Relative to Total        and Percentile
    Ended
                   Capital                   Ranking                   Capital                  Ranking
    Dec – 08          550%              380%   (81 percentile)           438%              148%   (96 percentile)
    Dec – 07          525%              377%   (79 percentile)           453%              146%   (98 percentile)
    Dec – 06          532%              371%   (81 percentile)           368%              147%   (94 percentile)
    Dec – 05          570%              358%   (87 percentile)           301%              144%   (89 percentile)
Source: UBPRs for Founders and Rock River.

In addition, between 2006 and 2008, Founders and Rock River purchased out-of-area
loan participations from an affiliate institution within the Campbell Group. Most of the
participations pertained to ADC. By June 30, 2008, Founders held 32 loan participations
from the affiliate, totaling about $87 million (or 132 percent of its total capital). As of
September 30, 2008, Rock River held 5 loan participations from the affiliate, totaling
approximately $7 million (or almost 100 percent of its total capital). Based on our review
of the 2008 examination reports and working papers, relevant institution records, and


9
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. Founders’ peer group included institutions
with assets between $300 million and $1 billion and Rock River’s peer group included institutions with
assets between $50 million and $100 million.

                                                     8
DRR records for Founders, Rock River, and the affiliate institution, we noted the
following with respect to the out-of-area ADC loan participations:

   •   Little to no due diligence was performed by Founders or Rock River prior to
       acquiring the loan participations from the affiliate. Many of the loan
       participations were poorly underwritten (e.g., insufficient financial information on
       borrowers, reliance on outdated appraisals, and inappropriate use of interest
       reserves).

   •   Several of the loan participations were for speculative land and land development
       projects.

According to the DSC Risk Management Manual of Examination Policies (Examination
Manual), institutions purchasing loan participations must make a thorough, independent
evaluation of the transactions and the risks involved before committing any funds.
Institutions should also apply the same standards of prudence, credit assessment,
approval criteria, and “in-house” limits that would be employed if the purchasing
organization were originating the loan. However, because of their common ownership in
the Campbell Group, Founders and Rock River relied on the underwriting of the affiliate
institution that originated the loans rather than making independent assessments of the
loans prior to purchase.

When Founders’ and Rock River’s local and out-of-area lending markets declined in
2007 and 2008, both institutions experienced deterioration in the quality of their loan
portfolios. Of the $88 million in loans that examiners adversely classified at Founders’
October 2008 examination, the vast majority pertained to CRE loans (including
$15 million in ADC loan participations). Similarly, the majority of the $5.5 million in
loans that examiners adversely classified at Rock River’s October 2008 examination
pertained to CRE loans (including a $1.4 million ADC loan participation). Based on our
review of DRR records, we found that the majority of the approximately $94 million in
loan participations purchased by Founders and Rock River were either non-performing
and/or considered special mention as of December 2009.

Loans to Insiders and Outside Officers of Strategic

Founders and Rock River made a number of poorly underwritten loans to insiders within
the Campbell Group and to outside officers of Strategic, which failed on May 22, 2009.
Although not a primary cause of failure, these loans added to the losses at both Founders
and Rock River.




                                            9
Loans to Insiders

A central review10 of the Campbell Group performed by the FDIC in August 2008 found
that the institutions within the chain collectively held over $15 million of insider loans as
of June 30, 2008. Of this amount, Rock River held three loans totaling $1.8 million.11
All three of Rock River’s insider loans were approved on an unsecured basis and with
minimal documentation and financial analysis. Examiners adversely classified one of
these three loans valued at $900,000 in the October 2008 examination and noted an
apparent violation of the Federal Reserve Board’s Regulation O due to the elevated risk
of repayment when the loan was approved. Examiners also noted an apparent violation
of Part 337 of the FDIC Rules and Regulations in connection with another of the three
insider loans valued at $800,000. The apparent violation of Part 337 was noted because
the loan exceeded the amount permitted by the regulation. All three insider loans were
charged off as loss in 2009.

Loans to Outside Directors of Strategic

In March 2008, Founders funded loans totaling $12.3 million to five officers of Strategic
for the purpose of purchasing shares in Strategic Capital Bancorp, Inc., the holding
company of Strategic. The underwriting of these loans was significantly deficient.
Among other things, the loans provided 100 percent financing for the shares, with the
shares securing the loans. However, Founders accepted a share price of $300 provided
by the borrowers without performing an independent valuation of the shares. In addition,
although Founders’ loan policy limited advances for stock loans to 50 percent of the
stock’s book value, the advance for the Strategic stock was 175 percent of book value. In
July and September 2008, all but $1.2 million of the $12.3 million in loans were sold to
the First National Bank of Danville, another institution in the Campbell Group. In May
2009, $8.9 million of the $12.3 million in loans were charged off, including the
$1.2 million that Founders held.


The FDIC’s Supervision of Founders and Rock River

The FDIC, in coordination with IDFPR, provided ongoing supervisory oversight of
Founders and Rock River through regular on-site risk management examinations,
targeted reviews, and offsite monitoring activities. Although not required by regulation
or policy, as referenced above, the FDIC also performed a 2-week, on-site central review
in August 2008 of the managerial and operational services provided by the Founders
Group, Inc. to other institutions in the Campbell Group. This review was instrumental in
identifying a number of key risks affecting institutions in the Campbell Group, including
Founders and Rock River. Through its supervisory efforts, the FDIC identified risks at
Founders and Rock River and brought these risks to the attention of the institutions’
Boards and management.

10
   Central review was the name given by the FDIC to a consolidated review of certain operations and
functions within the Campbell Group.
11
   According to the central review, Founders did not hold any insider loans as of June 30, 2008.

                                                   10
A key lesson learned with respect to the failures of Founders and Rock River is that when
institutions make significant investments in complex structured credit products without
appropriate risk management controls, such practices become unsafe and unsound and
require a strong supervisory response. Although examiners recommended in 2005 and
2006 that Founders and Rock River establish investment policies to address their CDO
investments, the actions taken by the institutions to address these recommendations were
not timely or adequate.

In addition, the FDIC’s central review of the Campbell Group represented a proactive,
supervisory approach for identifying potential risks that might not have otherwise been
identified through individual examinations or other offsite monitoring activities. Given
the effectiveness of the strategy in this case, the FDIC may find it beneficial to clarify its
procedures for conducting chain bank reviews to describe more clearly this type of on-
site central review and under what circumstances the review should be performed.
Finally, with respect to the heavy volume of out-of-area loan participations purchased in
2006 and continuing through April 2008, examiners could have expressed concern
regarding the lack of due diligence by Founders and Rock River and recommended that
the institutions implement stronger risk management controls in this area at earlier
examinations.

Supervisory History

The FDIC and IDFPR conducted four on-site risk management examinations of both
Founders and Rock River between 2005 and the institutions’ failures. Notably, the FDIC
accelerated the examination schedule for Rock River in 2008 to help ensure effective
coordination with the examination of Founders, including consistent treatment of
examination findings. Tables 6 and 7 summarize key supervisory information pertaining
to these examinations.

Table 6: On-site Examinations of Founders
                                 Regulator
                                                         Supervisory          Informal or Formal
   Examination Date            Conducting the
                                                           Ratings               Action* Taken
                                Examination
          10/06/08                   FDIC                  555544/5                    C&D
          09/10/07                  IDFPR                  221212/2                    None
          10/02/06                   FDIC                  211122/1                    None
          09/06/05                  IDFPR                  211121/1                    None
Source: OIG analysis of examination reports and information in the FDIC’s Virtual Supervisory Information
on the Net system for Founders.
* Informal corrective actions often take the form of Bank Board Resolutions or Memorandums of
Understanding. Formal corrective actions often take the form of Cease and Desist orders (C&D), but under
severe circumstances can also take the form of insurance termination proceedings.




                                                   11
Table 7: On-site Examinations of Rock River
                                  Regulator
                                                          Supervisory           Informal or Formal
     Examination Date           Conducting the
                                                            Ratings                Action Taken
                                 Examination
          10/20/08                    FDIC                   555544/5                    C&D
          12/03/07                   IDFPR                   212212/2                    None
          11/13/06                    FDIC                   112212/2                    None
          12/12/05                   IDFPR                   111222/1                    None
Source: OIG analysis of examination reports and information in the FDIC’s Virtual Supervisory Information
on the Net system for Rock River.

The FDIC’s offsite monitoring procedures generally consisted of (1) contacting the
institution’s management from time to time to discuss current and emerging business
issues and concerns, (2) using automated tools12 to help identify potential supervisory
concerns, and (3) conducting Chain Organization Reviews of the Campbell Group in
November 2006 and November 2009. The purpose of the Chain Organization Reviews,
which are required to be performed every 3 years according to the FDIC’s Case Manager
Procedures Manual,13 was to assess the overall risk profile and financial condition of,
and help formulate a supervisory strategy for, institutions in the Campbell Group. The
November 2006 review found that the institutions in the Campbell Group had a history of
sound financial performance and that their asset quality was satisfactory to strong.
Although the review noted that the Campbell Group had an elevated level of debt, the
review determined that the debt was manageable based on the organization’s earnings
and cash flow.

Unlike the Chain Organization Review, which is an offsite monitoring procedure, the
FDIC’s central review entailed a more in-depth, on-site assessment of potential risks in
the Campbell Group. The purpose of the central review was to achieve efficiencies in the
individual examinations of institutions in the Campbell Group, identify potential risks
warranting further review in upcoming examinations, and ensure consistent treatment of
examination findings. The central review was instrumental in identifying the rapid
deterioration in CDO investments, the high level of unsecured and poorly underwritten
loans to insiders, and the loosening of underwriting practices. Based on concerns
identified during the central review, the FDIC, in coordination with the OCC, conducted
targeted, on-site reviews of the Campbell Group’s CDO investments in December 2008
and February 2009. These reviews identified serious deficiencies in the methodology
used to value the CDOs and determined that the securities had lost a significant portion of
their value. The results of the targeted reviews were provided to the examination teams
assigned to each Campbell Group institution, including Founders and Rock River.


12
   The FDIC uses various offsite monitoring tools to help assess the financial condition of institutions. Two
such tools are the Statistical CAMELS Offsite Rating (SCOR) system and the Growth Monitoring System
(GMS). Both tools use statistical techniques and Call Report data to identify potential risks, such as
institutions likely to receive a supervisory downgrade at the next examination or institutions experiencing
rapid growth and/or a funding structure highly dependent on non-core funding sources.
13
   The Case Manager Procedures Manual states that Chain Organization Reviews must be performed for
chain banking organizations with less than $3 billion in total assets at least every 3 years. Reviews for
chain banking organizations with total assets greater than $3 billion should be performed annually.

                                                     12
As noted in the Background section of the report, all of the institutions in the Campbell
Group were considered to be affiliates for purposes of Section 23A of the Federal
Reserve Act. Regulators recognize that transactions among affiliates may not be subject
to the same type of analysis that exists in transactions between independent parties due to
the influence of common ownership or management between the parties. As such, the
examinations of Founders and Rock River were required to determine whether the
institutions’ transactions with affiliates were compliant with applicable regulatory
requirements and not detrimental to the safety and soundness of the institutions. Each
FDIC examination report since 2005 for the failed institutions included a section on
relationships with affiliates, but did not identify instances of noncompliance with
Section 23A.

Based on the results of the October 2008 examinations of Founders and Rock River, the
FDIC determined that the financial conditions of the institutions were critically deficient.
On April 27, 2009, IDFPR presented Founders and Rock River with a written Notice of
Intent to Take Possession and Control Pursuant to Section 51 of the Illinois Banking
Act.14 The notices stated that IDFPR had determined that the institutions were operating
with an unacceptable level of capital protection for their risk profile and that their
Boards’ supervision of the institutions was inadequate. The notices stated that if these
deficiencies were not corrected by June 26, 2009, IDFPR would take possession and
control of the institutions and their assets. The FDIC also prepared C&Ds to address the
problems at Founders and Rock River and presented the C&Ds on April 27, 2009.
However, the C&Ds were not executed prior to the IDFPR appointing the FDIC as
receiver for the institutions. IDFPR closed Founders and Rock River on July 2, 2009
because the institutions were operated in an unsafe and unsound manner and were unable
to raise sufficient capital.

Supervisory Oversight of CDOs

The first mention of CDOs in an examination report of Founders or Rock River occurred
in the December 2005 examination report for Rock River. The report noted that although
the institution had purchased $2.25 million in CDOs (representing 35 percent of Tier 1
Capital), its investment policy did not specifically address these instruments. The report
recommended that Rock River expand its investment policy guidance to address CDOs
and establish CDO limits relative to total investments and capital. The October 2006
examination report for Founders noted that the institution had approximately $29 million
in CDOs (representing 42 percent of Tier 1 Capital). Similar to Rock River, Founders’
investment policy did not address CDOs. The October 2006 examination report
recommended that Founders’ investment policy be expanded to include:

     •   The types of CDOs approved for investment.

     •   Exposure guidelines (such as percentage of capital) relating to each type of CDO.


14
  IDFPR issued a separate C&D to Founders on April 27, 2009 requiring the institution to cease and desist
from soliciting or knowingly accepting uninsured deposits. The order directed Founders to submit weekly
reports to IDFPR on its uninsured depositors. IDFPR did not issue a C&D to Rock River.

                                                   13
    •   Credit quality guidelines for CDO investments.

    •   Geographic and industry diversification guidelines.

    •   Due diligence and monitoring procedures, including documentation
        requirements.

According to the October 2006 examination report, the Investment Officer for the
Campbell Group agreed to enhance the investment policy to address the above
recommendations.

Examiners assigned supervisory component ratings of “1” for asset quality at the
December 2005 and October 2006 examinations of Rock River and Founders and did not
conduct visitations or other follow-up prior to the next examinations to assess the
institution’s corrective actions pertaining to the CDOs. By March 31, 2007, Founders’
CDO investments had increased to $41.2 million (or 62 percent of Tier 1 Capital) and
Rock River’s CDO investments had increased to $7.7 million (or 144 percent of Tier 1
Capital). Such concentrations were among the highest of all FDIC-supervised institutions
examined by the Chicago Regional Office. According to a survey conducted by the
Chicago Regional Office, only nine of the 1,050 FDIC-supervised institutions in the
region had CDO investments representing more than 25 percent of Tier 1 Capital as of
September 2007. Five of these nine institutions were part of the Campbell Group and
included Founders and Rock River.

The November 2006 and December 2007 examination reports for Rock River did not
specifically mention the institution’s CDO holdings and examiners assigned supervisory
component ratings of “1” for asset quality. The September 2007 examination report for
Founders also did not specifically mention the institution’s CDOs. However, examiners
lowered Founders’ asset quality component rating from a “1” to a “2” during the
September 2007 examination based on weakening loan underwriting and credit
administration practices. The above referenced examination reports were not critical of
the institutions’ CDO investments because the securities continued to hold an investment
grade and were generally performing well at the time of the examinations.

In August 2007, Founders and Rock River adopted a formal investment policy developed
by the Investment Officer for the Campbell Group that specifically addressed CDOs.
However, as previously discussed in this report, the policy was not adequate. In addition,
as reflected in Table 8 on the following page, Tier 1 Leverage Capital ratios at Founders
and Rock River were well below the institutions’ peer groups and steadily declined
during the years that the institutions were assuming more risk through their CDO
purchases.




                                            14
Table 8: Trends in Tier 1 Leverage Capital Ratios for Founders and Rock River

  Year Ended        Founders           Peer Group      Rock River       Peer Group
    Dec – 05           7.07%                8.88%         8.86%            9.77%
    Dec – 06           6.70%                9.02%         6.85%            9.82%
    Dec – 07           6.58%                9.06%         7.17%            9.78%
    Dec – 08           5.92%                8.76%         6.01%            9.67%
Souce: UBPRs for Founders and Rock River.

In April 2008, based on the deterioration in the CDO markets, the Investment Officer for
the Campbell Group changed the organization’s investment policy to prohibit any further
CDO purchases. By July 2008, some of the CDOs held by the Campbell Group had
fallen below investment grade and almost all of the securities were declining in value.
The FDIC’s August 2008 central review identified a substantial deterioration in the value
of the CDOs held by institutions throughout the Campbell Group, including Founders and
Rock River. Because all but one of the institutions in the Campbell Group held CDOs,
the FDIC determined that assessing the securities in a centralized manner (rather than on
an examination-by-examination basis) would be prudent. In addition, due to the
complexity of the securities, examiners coordinated extensively with FDIC capital
markets specialists in the Chicago Regional Office and the Washington, D.C. Office to
support their assessment of the CDOs.

In December 2008 and February 2009, the FDIC and the OCC jointly performed targeted
reviews to assess the pricing and accounting treatment of CDOs held by the Campbell
Group. Based on the results of these reviews, examiners adversely classified the majority
of CDOs and notified the Campbell Group of serious concerns regarding the
methodologies used to value the securities. Examiners recommended, among other
things, that the Campbell Group provide supporting information for the critical
assumptions used to value the CDOs and obtain independent third-party valuations.
After several months of discussion and analysis involving the FDIC and the OCC,
Founders and Rock River recognized significant losses in their CDO investments as of
March 31, 2009. Based on our review of DRR records and discussions with DRR staff,
the institutions’ CDO investments have since become largely worthless.

The role that CDOs played in the failures of Founders and Rock River offers an
important lesson learned regarding the risks associated with complex structured credit
products. That is, when institutions make significant investments in such products
without appropriate risk management controls, such practices become unsafe and
unsound and require a strong supervisory response. Although examiners recommended
in 2005 and 2006 that Founders and Rock River establish investment policies to address
their CDO investments, the actions taken by the institutions to address those
recommendations were not timely or adequate. A stronger supervisory response in the
cases of Founders and Rock River could have included conducting visitations, targeted
reviews, or follow-up between regular examinations to assess the progress of
recommended corrective actions; requiring the institutions to increase their capital


                                                15
positions to mitigate the risk of loss associated with the CDOs; and/or downgrading the
institutions’ supervisory ratings and pursuing enforcement actions, if appropriate.

In recognition of the risks associated with CDOs, the FDIC issued Financial Institution
Letter (FIL)-20-2009, entitled Risk Management of Investments in Structured Credit
Products. The purpose of the FIL, which was issued on April 30, 2009, was to reiterate
and clarify supervisory guidance to FDIC-supervised institutions regarding the purchase
and holding of complex structured credit products. The FIL states that a number of
insured institutions with portfolio holdings in private-label mortgage-backed securities,
CDOs, or asset-backed securities are facing heightened losses as a result of significant
investments in these products. The FIL also states that certain structured credit products,
particularly private-label mortgage-backed securities and CDOs, have experienced
deteriorating collateral performance, price declines, and credit rating downgrades and that
management due diligence regarding purchases of these products was often lacking. The
FIL discusses the various supervisory concerns related to these securities, such as pre-
purchase analysis, suitability determination, risk limits, credit ratings, valuation, ongoing
due diligence, adverse classification, and capital treatment.

Central Review

The FDIC’s central review of the Campbell Group represented a valuable and proactive
step in the supervision of institutions in the Campbell Group. In addition to achieving
efficiencies in the scope of work performed in individual on-site examinations, the
review also identified key risks that might not have otherwise been identified through
individual examinations or other offsite monitoring activities such as the Chain
Organization Reviews. For example, management officials at Founders advised
examiners in late 2007 that the institution’s affiliation with the Campbell Group afforded
unlimited supplemental capital should the need arise. In addition, the December 2007
examination report for Rock River states that the institution’s relationship with the
Campbell Group is considered a positive one because it provides access to additional
capital. However, the central review identified extensive insider lending throughout the
Campbell Group and an overall high level of debt that raised serious doubts about the
ability of the Campbell Group to raise capital. This information was provided to the
examination teams at each Campbell Group institution to assist them in assessing capital
adequacy.

The central review also provided valuable insight into key management decisions in the
Campbell Group that affected institutions throughout the chain, including Founders and
Rock River. Such decisions included CDO purchases and valuations and the allocation
of loan participations from an affiliate institution to other institutions in the Campbell
Group. FDIC officials advised us that, as a matter of practice, DSC regional offices
conduct central reviews such as the one performed of the Campbell Group when the
relationships between a chain bank organization’s entities make it appropriate to do so.
The FDIC may find it beneficial to clarify its procedures for conducting chain bank
reviews to more clearly describe this type of on-site central review and under what
circumstances the review should be performed.



                                             16
Supervisory Oversight of CRE Concentrations and ADC Loan Participations

With respect to CRE concentrations, examination reports for Founders issued between
2005 and 2008 consistently noted the institution’s concentration in CRE and included
recommendations to improve its concentration risk management practices. However,
prior to 2008, examiners determined that the risks associated with Founders’ CRE
concentration were adequately managed and that various factors, including not having the
concentration centered in one type of collateral and having a large number of credits
secured by owner-occupied properties, mitigated the risk associated with the
concentration. Regarding Rock River, examiners did not consider the institution’s CRE
concentration to be a significant concern as reflected in the institution’s asset quality
ratings of “1” prior to 2008. Although examiners determined that Founders’ and Rock
River’s loan underwriting and credit administration practices were generally adequate
prior to 2008, the CRE concentrations made the institutions vulnerable to a sustained
downturn in the real estate market.

With respect to the out-of-area loan participations, the October 2006 and September 2007
examination reports for Founders did not identify specific concerns with these loans.
However, the October 2008 examination report stated that Founders had purchased a
large amount of loan participations from an out-of-area affiliate institution. The report
noted that because these loan participations were secured by real estate, their value had
declined substantially. Regarding Rock River, the December 2005 and November 2006
examination reports did not identify concerns related to the loan participations. However,
the December 2007 examination report noted that the risk in Rock River’s loan portfolio
had become somewhat elevated due to the size of the loan participations that the
institution had acquired. Prior to 2008, examiners did not express significant concern
regarding the loan participations at Rock River and assigned supervisory component
ratings of “1” for the institution’s asset quality.

The majority of loan participations purchased from the affiliate were accepted by the
Boards of Founders and Rock River without conducting adequate due diligence (i.e.,
independent assessments). The DSC Examination Manual states that institutions within a
chain banking organization may be susceptible to poor loan participation practices and
provides that “particular emphasis should be given to the volume and frequency of inter-
institution transactions such as loan participations.” Given the volume of loan
participations purchased by Founders and Rock River between 2006 and 2008 from the
Campbell Group affiliate, examiners could have expressed concern regarding the lack of
due diligence by Founders and Rock River and recommended that the institutions
implement stronger risk management controls in this area during the 2006 or 2007
examinations.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325, Capital Maintenance, of the FDIC Rules
and Regulations implements the requirements of PCA by establishing a framework of
restrictions and mandatory supervisory actions that are triggered based on an institution’s


                                            17
capital levels. Based on the supervisory actions taken with respect to Founders and Rock
River, the FDIC properly implemented applicable PCA provisions of section 38 of the
FDI Act. However, PCA’s role was limited because capital was a lagging indicator of
the institutions’ financial health.

Founders and Rock River were considered Well Capitalized for PCA purposes until
March 31, 2009, when both institutions recognized significant losses related to their CDO
investments. These losses caused a reduction in the institutions’ capital and, as a result,
Founders fell to Significantly Undercapitalized and Rock River fell to Critically
Undercapitalized. Tables 9 and 10 illustrate the capital positions of Founders and Rock
River relative to the PCA thresholds for Well Capitalized institutions for the period
December 31, 2006 through March 31, 2009.

Table 9: Founders’ Capital Levels
 Period Ended       Tier 1 Leverage   Tier 1 Risk-    Total Risk-       PCA Capital
                    Capital           Based Capital   Based Capital     Category
 PCA Threshold      5% or more        6% or more      10% or more
 Dec-06             6.70%             8.45%           10.61%            Well Capitalized
 Dec-07             6.58%             8.16%           10.59%            Well Capitalized
 Dec-08             5.92%             7.69%           10.30%            Well Capitalized
 Mar-09             2.83%             3.27%           5.73%             Significantly
                                                                        Undercapitalized
Source: UBPRs for Founders.

Table 10: Rock River’s Capital Levels
 Period Ended       Tier 1 Leverage   Tier 1 Risk-     Total Risk-       PCA Capital
                    Capital           Based Capital    Based Capital     Category
 PCA Threshold      5% or more        6% or more       10% or more
 Dec-06             6.85%             9.46%            10.25%            Well Capitalized
 Dec-07             7.17%             9.60%            10.25%            Well Capitalized
 Dec-08             6.01%             9.21%            10.46%            Well Capitalized
 Mar-09             0.56%             0.57%            1.14%             Critically
                                                                         Undercapitalized
Source: UBPRs for Rock River.

Based on the findings of the October 2008 examinations of Founders and Rock River,
IDFPR separately presented Founders and Rock River with a written Notice of Intent to
Take Possession and Control Pursuant to Section 51 of the Illinois Banking Act on April
27, 2009. Among other things, the notices stated that IDFPR had determined that the
institutions were operating with unacceptable levels of capital protection for their risk
profile. The notices stated that the institutions needed to increase their Tier 1 Regulatory
Leverage Capital ratio, Tier 1 Risk-Based Regulatory Capital ratio, and Total Risk-Based
Capital ratio to not less than 5 percent, 6 percent, and 10 percent, respectively. If the
institutions were not successful in raising sufficient capital by June 26, 2009, IDFPR
intended to take possession and control of the institutions.

The FDIC formally notified Founders and Rock River on May 12, 2009 that, based on
their Call Reports for the quarter ended March 31, 2009, the institutions were considered
Significantly Undercapitalized and Critically Undercapitalized respectively, for purposes
of Part 325. The notifications included a reminder that the institutions were subject to

                                              18
certain restrictions and requirements defined under section 38, including the submission
of a capital restoration plan. Founders submitted a capital restoration plan to the FDIC on
May 22, 2009. However, the FDIC determined that the plan lack adequate details
regarding the institution’s capital sources. Rock River did not submit a capital restoration
plan to the FDIC. IDFPR closed Founders and Rock River on July 2, 2009 because the
institutions were not able to raise sufficient capital or find suitable acquirers.


Corporation Comments
We issued a draft of this report on January 25, 2010. DSC management subsequently
provided us with additional information for our consideration. We made certain changes
to the report that we deemed appropriate based on the information that DSC management
provided. On February 12, 2010, the Director, DSC provided a written response to the
draft report. The response is presented in its entirety as Appendix 5 of this report.

The DSC Director’s response concurred with our conclusions regarding the causes of
failure. With regard to our assessment of the FDIC’s supervision of Founders and Rock
River, DSC summarized several supervisory actions taken in relation to the institution’s
activities. DSC also noted that stronger supervisory follow-up to assess the progress of
recommended corrective actions would have been prudent for both institutions,
particularly with respect to managing the risks inherent in the CDO portfolios. In that
regard, DSC stated that it has issued updated guidance addressing risk management of
investments in structured credit products that provides clarification to existing guidance
and strongly urges insured institutions to revisit this existing guidance.




                                             19
                                                                                 Appendix 1

                      Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency, reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of Founders’ and Rock River’s
failures and the resulting material losses to the DIF and (2) evaluate the FDIC’s
supervision of Founders and Rock River, including the FDIC’s implementation of the
PCA provisions of section 38 of the FDI Act.

We conducted this performance audit from November 2009 to January 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of Founders’ and Rock River’s operations
from 2005 until their failures on July 2, 2009. Our review also entailed an evaluation of
the regulatory supervision of the institutions during the same period.

To accomplish the objectives, we performed the following procedures and techniques:

     •   Analyzed examination reports and other supervisory documents prepared by the
         FDIC and IDFPR from 2005 through July 2009.

     •   Reviewed the following:

           •   Institution data and correspondence maintained in DSC’s Chicago Regional
               Office.

           •   Relevant reports prepared by DRR and DSC relating to the institutions’
               closures. We also reviewed records maintained by DRR at its temporary
               Worth, Illinois office for information that would provide insight into the
               institutions’ failures.

           •   Pertinent FDIC regulations, policies, procedures, and guidance.




                                              20
                                                                              Appendix 1

                    Objectives, Scope, and Methodology

    •    Interviewed DSC personnel in Washington, D.C., and the Chicago Regional
         Office and DRR personnel in Worth, Illinois.

     •   Interviewed IDFPR officials to discuss their role and perspective on the
         supervision of the institutions. We also reviewed relevant IDFPR examination
         documentation.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, and
interviews of examiners to understand Founders’ and Rock River’s management controls
pertaining to the causes of failures and material losses as discussed in the body of this
report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that was used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act and the FDIC Rules and Regulations.
The results of our tests were discussed, where appropriate, in the report. Additionally, we
assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.




                                            21
                                                                                  Appendix 2

                               Glossary of Terms

Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Chain Banking       According to the FDIC Case Manager’s Procedures Manual, a chain
Organization        banking organization is a group of insured institutions which are controlled,
                    directly or indirectly, by an individual acting alone, through, or in concert
                    with any other individual(s). The individual(s) must own or control
                    25 percent or more of the institutions’ voting securities; the power to
                    control in any manner the election of a majority of the directors of the
                    institutions; or the power to exercise a controlling influence over the
                    management or policies of the institutions.
Collateralized      General terminology for a broad range of structured finance products.
Debt Obligation     CDOs are similar to collateralized mortgage obligations and asset-backed
(CDO)               securities in that they are securitized investments that are subdivided into
                    tiers or tranches, and are backed by an underlying collateral pool. Unlike
                    collateralized mortgage obligations and asset-backed securities, the CDO
                    collateral pool can contain a wide variety of less than homogeneous assets.
                    In its basic form, CDOs reallocate the risk of the underlying collateral pool
                    to investors based on their risk tolerance levels and investment return
                    objectives. CDOs are most commonly issued by commercial banks,
                    insurance companies, money managers, and investment banks.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Credit Ratings      A credit ratings agency is any person engaged in the business of issuing
Agency              credit ratings on the Internet or through another readily accessible means,
                    for free or for a reasonable fee by employing either a quantitative or
                    qualitative model, or both, to determine credit ratings; and receiving fees
                    from either issuers, investors, or other market participants, or a
                    combination thereof. These include nationally recognized rating
                    organizations such as AM Best Company, DBRS Ltd., Fitch, Inc., Moody’s
                    Investment Services, Inc., Ratings and Investment Information, Inc., and
                    Standard and Poor’s Rating Services.




                                             22
                                                                                    Appendix 2

                                 Glossary of Terms

Investment Grade Investment grade generally means a security that is rated in one of the four
                      highest rating categories by two or more nationally recognized statistical
                      rating organizations. In most instances, a security must be “investment
                      grade” to be a permissible investment for FDIC-insured institutions. Bonds
                      that are below investment-grade are sometimes called high yield bonds or
                      junk bonds.
Prompt                The purpose of PCA is to resolve the problems of insured depository
Corrective Action     institutions at the least possible long-term cost to the DIF. Part 325,
(PCA)                 subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                      Regulations, section 325.101, et. seq, implements section 38, Prompt
                      Corrective Action, of the FDI Act, 12 United States Code section 1831(o),
                      by establishing a framework for determining capital adequacy and taking
                      prompt supervisory actions against depository institutions that are in an
                      unsafe and unsound condition. The following terms are used to describe
                      capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                      (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                      Undercapitalized.
Rating                An indicator of the credit risk of one or more securities assigned by a
                      nationally recognized statistical rating organization, such as Moody's
                      Investors Services, Standard & Poor's Corporation, or Fitch Investors
5
                      Service.

Section 23A of the Section 23A (1) establishes limits on the amount of ‘‘covered transactions’’
Federal Reserve    between a member bank and its affiliates (any one affiliate and in the
Act                aggregate as to all affiliates); (2) requires that all covered transactions
                      between a member bank and its affiliates be on terms and conditions that
                      are consistent with safe and sound banking practices; (3) prohibits the
                      purchase of low quality assets from an affiliate; and (4) requires that
                      extensions of credit by a member bank to an affiliate, and guarantees on
                      behalf of affiliates, be secured by statutorily defined amounts of collateral.

Structured Credit     The term is broadly defined to refer to all structured investment products
Product               where repayment is derived from the performance of the underlying assets
                      or other reference assets, or by third parties that serve to enhance or support
                      the structure. Such products include, but are not limited to, asset-backed
                      commercial paper programs, mortgage-backed securities or collateralized
                      mortgage obligations, and other asset-backed securities, such as automobile
                      and credit card-backed securities, structured investment vehicles, and
                      collateralized debt obligations, including securities backed by TruPs.




                                               23
                                                                               Appendix 2

                             Glossary of Terms

Tranches          Multiple classes of equity and debt that are set in a senior or subordinate
                  position to one another based upon seniority in bankruptcy and timing of
                  repayment. The tranches are divided into three general categories: (1)
                  Senior tranche; (2) Mezzanine tranche; and (3) Equity tranche.
Trust Preferred   Hybrid instruments possessing characteristics typically associated with debt
Security (TruP)   obligations. Under the basic structure of trust preferred securities a
                  corporate issuer, such as a bank holding company, first organizes a
                  business trust or other special purpose entity. This trust issues two classes
                  of securities: common securities, all of which are purchased and held by the
                  corporate issuer, and trust preferred securities, which are sold to investors.
                  The business trust's only assets are deeply subordinated debentures of the
                  corporate issuer, which the trust purchases with the proceeds from the sale
                  of its common and preferred securities. The corporate issuer makes
                  periodic interest payments on the subordinated debentures to the business
                  trust, which uses these payments to pay periodic dividends on the trust
                  preferred securities to the investors. The subordinated debentures have a
                  stated maturity and may also be redeemed under other circumstances. Most
                  trust preferred securities are subject to a mandatory redemption upon the
                  repayment of the debentures.
Uniform Bank      The UBPR is an individual analysis of financial institution financial data
Performance       and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)     The report is produced by the Federal Financial Institutions Examination
                  Council for the use of banking supervisors, bankers, and the general public
                  and is produced quarterly from data reported in Reports of Condition and
                  Income submitted by banks.




                                          24
                                                                               Appendix 3

                                  Acronyms

ADC      Acquisition, Development, and Construction

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to Market
         Risk

CDO      Collateralized Debt Obligation

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FIL      Financial Institution Letter

IDFPR    Illinois Department of Financial and Professional Regulation

OCC      Office of the Comptroller of the Currency

OIG      Office of Inspector General

PCA      Prompt Corrective Action

REIT     Real Estate Investment Trust

TruP     Trust Preferred Security

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System




                                        25
                                                                                                                         Appendix 4

                                        Campbell Group Organization



                                                                         Campbell
                                                                          Family
                                                                         Members
                                                                         and Their
                                                                          Related
                                                                         Interests




                                                                                                                                     Scott
           Founders                                         Peotone                    Terrapin               Iroquois             County
           Group, Inc.                                      Bancorp                    Bancorp,               Bancorp              Bancorp
             (41%)                                         Inc. (69%)                 Inc. (53%)                (76%)               (34%)




Founders                   Interbanx       Legacy          Rock River     Open Bank    Elizabeth      Open Bank    JW Bancorp    First State
 (100%)     Vermillion     Southwest      Integrity         Bancorp        (100%)     State Bank       (100%)         (42%)       Bank of
             Holdings     Inc. (100%)    Group, Inc.         (69%)                      (100%)                        (Scott     Winchester
           Inc. (100%)                     (48%)                                                                     County       (100%)
                                                                                                                     Bancorp
                                                                                                                    also owns
                                                                                                                       42%)




                       First                      Open Bank         Rock River                                                John
                     National                      (100%)            (100%)                                                  Warner
                     Bank of                                                                                                Financial
                     Danville                                                                                                 Corp.
                     (100%)                                                                                                  (100%)




                                 Berry-Shino Securities,
                                          Inc.
                                         (64%)
                                                                                                                                         John
                                                                                                                                        Warner
                                                                                                   Open                                  Bank
                                                                                                                                        (100%)
                                                                                                   Closed

                                                                                      (%) = Ownership




                                                                    26
                                                                                 Appendix 5
                                     Corporation Comments




Federal Deposit Insurance Corporation
 550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection


TO:                Stephen Beard
                   Assistant Inspector General for Material Loss Reviews

                           /Signed/
FROM:              Sandra L. Thompson
                   Director

SUBJECT:           Draft Audit Report Entitled, Material Loss Review of Founders
                   Bank, Worth, Illinois, and Rock River Bank, Oregon, Illinois (Assignment No.
                   2009-057)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
Insurance Corporation’s Office of Inspector General (OIG) conducted a material loss review of
Founders Bank (FB) and Rock River Bank (RRB) which failed on July 2, 2009. This memorandum is
the response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft Report
(Report) received on January 25, 2010.

The Report concludes that FB and RRB failed due to their Boards’ and senior management’s
ineffective risk management practices over investment and lending activities. Significant investments
in collateralized debt obligations (CDOs) were undertaken without establishing and implementing
appropriate risk management controls. Additionally, concentrations in commercial real estate (CRE)
and acquisition, development, and construction (ADC) loans made FB and RRB vulnerable to the
sustained downturn in the real estate market, resulting in increased loan losses and depleted earnings.
The ADC portfolio included out-of-territory loan participations purchased for which neither FB nor
RRB had performed proper due diligence, thereby heightening their vulnerability and risk.

The FDIC and the Illinois Department of Financial and Professional Regulation (IDFPR) provided on-
going supervisory oversight through on-site risk management examinations, targeted reviews, and off-
site monitoring between 2004 and 2009, resulting in a downgrade of FB’s and RRB’s ratings in 2008.
The on-site examinations noted regulatory concerns and made recommendations to correct ineffective
risk management practices, CRE concentrations, CDO concentrations, and loan underwriting and credit
administration deficiencies. The Report concludes that DSC provided a proactive supervisory strategy,
reviewing FB’s and RRB’s complex chain banking organization on a frequency and level of depth
consistent with risk.

Stronger supervisory follow-up to assess the progress of recommended corrective actions would have
been prudent for FB and FRR, particularly with respect to ensuring that programs were sufficient to
manage the risks of their investments in CDOs. DSC has issued a Financial Institution Letter in 2009
on Risk Management of Investments in Structured Credit Products that provided clarification to
existing guidance and strongly urged insured institutions to revisit this existing guidance.

Thank you for the opportunity to review and comment on the Report.




                                                   27
